No.
IN THE SUPREME COURT OF THE UNITED STATES
LUZ GONZÁLEZ-BERMÚDEZ,
Petitioner,
v.
ABBOTT LABORATORIES P.R. INC. and KIM PÉREZ,
Respondents.
CERTIFICATE OF SERVICE
I, Michael T. Kirkpatrick, a member of the bar of the United States Supreme Court,
sent from Washington, DC, three copies of the PETITION FOR WRIT OF
CERTIORARI in the above entitled case to each of the parties listed below. As
required under Supreme Court Rule 29.3, all parties to be served have been served
via the United States Postal Service, with no less than first-class, prepaid postage. In
addition, the parties were served with one copy of the petition via email.
Ricardo F. Casellas Sánchez
Carla S. Loubriel
CASELLAS ALCOVER & BURGOS PSC
PO Box 364924
San Juan, PR 00936
(787) 756-1400
cloubriel@cabprlaw.com
Virginia A. Seitz
Kathleen Moriarty Mueller
SIDLEY AUSTIN LLP
1501 K Street, NW
Washington, DC 20005
vseitz@sidley.com
Counsel for Respondents

I declare under penalty of perjury that the foregoing is true and correct.
Executed on July 30, 2021.
s/ Michael T. Kirkpatrick
Michael T. Kirkpatrick
PUBLIC CITIZEN LITIGATION GROUP
1600 20th Street NW
Washington, DC 20009
(202) 588-1000
mkirkpatrick@citizen.org
Counsel for Petitioner

